No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
UNITED STATES OF AMERICA, PETITIONER
v.
REFUGIO PALOMAR-SANTIAGO
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the
PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage prepaid, this 5th
day of October 5, 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5,129
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
October 5, 2020.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 5, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition
to mailing your brief via first-class mail, we would appreciate a fax or email copy of your brief. If that is
acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case Management, Office of
the Solicitor General, at (202) 514-8844, or email at SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s
phone number is (202) 514-2217 or 2218. Thank you for your consideration of this request.

UNITED STATES OF AMERICA
REFUGIO PALOMAR-SANTIAGO
AARIN KEVORKIAN
CRISTEN C. THAYER
ASSISTANT FEDERAL PUBLIC DEFENDERS
411 E. BONNEVILLE AVENUE
SUITE 250
LAS VEGAS, NV 89101
702-388-6577
AARIN_KEVORKIAN@FD.ORG
CRISTEN_THAYER@FD.ORG

